I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

J O N E S, M A R K R A N D A L L
P etiti o n er
vs.

N o:

2 0- 7 5 0 3

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
M ar c h 2 5, 2 0 2 1
c c:
M A T T H E W M C G A V O C K R O BI N S O N
R O BI N S O N & B R A N D T, P S C
6 2 9 M AI N S T R E E T
S UI T E B
C O VI N G T O N, K Y 4 1 0 1 1

